CERTIFICATE OF SERVICE
I, Michael D. Schwartz, hereby certify that 1 copy
of the foregoing Petition for a Writ of Certiorari in In re
the Paternity of B.J.M.: Angela L. Carroll v. Timothy W.
Miller were sent via Next Day Service to the U.S.
Supreme Court and to the following parties listed below,
this 31st day of July, 2020:
Stephanie L. Finn
David J. Rice
Terry L. Moore
P.O. Box 167
116 W. Grand Avenue
Eau Claire, WI 54702-0167

Counsel for Respondents
All parties required to be served have been served.

Schwartz Law Firm
600 Inwood Avenue N., Suite 130
Oakdale, MN 55128

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

